OFFICE OF INSPECTOR GENERAL


AUDIT OF THE ACCURACY OF
BIOGRAPHICAL DATASHEETS
PROVIDED BY
INTERNATIONAL RESOURCES
GROUP TO USAID FOR
CONTRACTS IN IRAQ
AUDIT REPORT NO. 9-267-06-001-P
October 6, 2005




WASHINGTON, DC
Office of Inspector General


October 6, 2005

MEMORANDUM

TO:                  ANE/SAA Program Officer, Ross Wherry

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Audit of the Accuracy of Biographical Datasheets Provided by International
                     Resources Group to USAID for Contracts in Iraq.
                     (Report No 9-267-06-001-P)

This memorandum is our final report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included your response in Appendix II.

This report does not contain any recommendations for your action.

Once again, I want to express my sincere appreciation for the cooperation and courtesy
extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

           Is selected information on the biographical data
           sheets provided to USAID by International
           Resources Group accurate?

Audit Finding ................................................................................................................... 3

Evaluation of Management Comments ......................................................................... 5

Appendix I – Scope and Methodology .......................................................................... 6

Appendix II – Management Comments ......................................................................... 7
SUMMARY OF RESULTS
The Performance Audits Division of the Office of Inspector General (OIG) conducted an
audit of selected information, based on a sample of the biographical data sheets
provided to USAID by International Resources Group (IRG), to determine if the
information was accurate (see pages 2 and 3).

No significant discrepancies were noted on the biographical data sheet information that
was tested during the audit. Additionally, the audit noted that IRG ensured this accuracy
by verifying information, such as education, salary and citizenship shown on the form
(see page 3). Based on the results of this audit, no recommendations are being made
(see page 4).

Management comments are included in the report at Appendix II (see page 7). USAID
Asia and Near East Bureau expressed its agreement with the contents of the report.




                                                                                       1
BACKGROUND
On May 1, 2003, U.S. President George W. Bush announced that major combat
operations in Iraq had ended. At the same time, the USAID Asia and Near East Bureau
deployed a number of technical staff to prepare for immediate reconstruction
requirements. The USAID Mission in Iraq implements programs supporting four
objectives: (1) restoring essential infrastructure; (2) supporting essential education,
health, and social services; (3) expanding economic opportunity; and, (4) improving
government efficiency and accountability. These activities include reconstruction and
rehabilitation of ports, roads, bridges, airports, communications networks, water
systems, sewage systems, sanitation systems, housing and community facilities,
schools, hospitals and clinics, and electricity generation, transmission, and distribution.
They also include the provision of clean water and health services for Iraqis affected by
disaster.
USAID had two contracts with International Resources Group (IRG) to provide
experienced personnel in assisting USAID to manage reconstruction and rehabilitation
activities in Iraq. The total value of these two contracts was $57,993,046. The first
contract (Contract No. EMT-C-00-03-00007), which became effective February 5, 2003,
had a base period of 90 days and two 12-month options. The second option was never
exercised. The second contract (Contract No. 517-C-00-04-00106-00), which became
effective May 5, 2004, has a base period of 18 months and two 12-month options.
IRG, established in 1978, is a for-profit international professional services firm that helps
governments, the private sector, communities, and households manage critical
resources to build a cleaner, safer, and more prosperous world. In addition to providing
general management and institutional strengthening services to public and private sector
clients in the United States and around the world, IRG provides professional services
through contracts to USAID.


AUDIT OBJECTIVE
This audit was added to the fiscal year 2005 audit plan because of Office of Inspector
General (OIG) concerns that inaccuracies on IRG’s biographical data sheets may be a
systemic and widespread problem. Thus, the OIG performed this audit to answer the
following question:

   •   Is selected information on the biographical data sheets provided to USAID by
       International Resources Group accurate?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                           2
AUDIT FINDING
No significant discrepancies were noted on the biographical data sheet information that
was tested during the audit. Additionally, the audit noted that International Resources
Group (IRG) ensured this accuracy by verifying information, such as education, salary,
and citizenship shown on the form.          Based on the results of this audit, no
recommendations are being made.

As a requirement of the contract agreements,1 the contractor must furnish to the
Contracting Officer on AID Form 1420-17, “Contractor Employee Biographical Data
Sheet,” biographical information on the following individuals to be employed in the
performance of the contract: (1) all individuals to be sent outside of the United States or
(2) any employees designated as “key personnel.” Also, in signing and submitting the
Contractor Employee Biographical Data Sheet, the Contractor certifies that reasonable
steps have been taken to verify the information contained in the aforementioned form.
IRG ensured this accuracy by performing educational, salary, and citizenship
verifications.

IRG’s Recruitment Assistant was responsible for verifying education credentials2
reflected on the USAID biographical data sheets and accompanying resumes for:

     1. New technical staff, where a biographical data sheet may be submitted to
        USAID for proposal or project purposes.
     2. Proposed long-term experts.
     3. Short-term experts upon contracting, if a position or labor category requires
        specific education qualifications.
     4. Situations when a full biographical data verification was required prior to
        submission to USAID.

Educational credentials were verified either by contacting the school directly or online
through the National Student Clearinghouse or DegreeCheck.com.

Salary verifications were performed by contacting the employer by one of the following
methods:

       •   Calling the reference name given on the biographical data sheet or speaking
           with the Human Resources department.
       •   E-mailing the name of the person on the biographical data sheet, requesting
           the information needed.
       •   Faxing the Human Resources department, attaching either the signed
           biographical data sheet or the IRG release form.


1
  USAID Acquisition Regulation (AIDAR) 48 CFR Chapter 7, 752.7001 Biographical Data (July
1997).
2
  Usually this verification is limited to the highest/most recent degree earned as academic
institutions usually check previous academic history.



                                                                                         3
Salary histories were verified to comply with USAID requirements on the submission of a
signed USAID biographical data sheet for a cost plus fixed fee contract. Verification can
also be triggered if a review of the information provided on a biographical data sheet is
not consistent with a candidate’s resume. IRG staff also conducted random salary
verifications for non-cost plus fixed fee contracts as a regular business practice.

The verification of citizenship was substantiated by ensuring that every IRG employee
completes a U.S. Department of Justice Form I-9, “Employment Eligibility Verification.”
The employee must also provide documents that establish both his/her identity and
employment eligibility.3 IRG staff then records the document title, issuing authority,
document number, and expiration date, if any.

In addition, we conducted independent educational credential, salary, and citizenship
verifications. A sample size of 21 employees was judgmentally selected through
methods discussed in the scope and methodology section of this report. A request for
verification of claimed information was sent to each of the 21 selected employees’
previous employers and educational institutions, for a total of 42 verifications. Of the 42
confirmations sent, 35 responses were received.4

Of the 21 requested educational verifications, 19 confirmations were received. These
confirmations substantiated the major, degree awarded, dates attended and graduation
date. Of the aforementioned 19, no significant discrepancies were noted.

Of the 21 requested verifications of prior salary and work experience, 16 confirmations
were received. Each of the 16 verifications substantiated the date of employment,
position title, and annual salary. No issues were noted.

Through USAID’s Office of Security and a review of the U.S. Department of Justice’s I-9
Forms, we verified the citizenship of the selected IRG employees. We found that all of
the selected employees were legal U.S. citizens.




3
  Some acceptable forms of documentation are, but not limited to, U.S. Passport, Certificate of
U.S. Citizenship, U.S. driver’s license, and U.S. social security card.
4
  Second notices were sent for the remaining unconfirmed items and additional efforts were made
via, fax, e-mail, and telephone calls; however, at the time this report was written, responses for
the remaining seven had not been received.
EVALUATION OF
MANAGEMENT COMMENTS
Management comments are included in Appendix II.

USAID Asia and Near East Bureau agreed with the contents of this audit report.




                                                                                 5
                                                                                   APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted government auditing standards. The fieldwork was performed between April 7,
2005 and September 15, 2005 at USAID and International Resources Group (IRG)
offices in Washington, D.C. The audit covered two USAID contracts5 in which 17
vouchers were selected from the period February 5, 2003 through December 31, 2004.
Internal controls relevant to the audit objective, such as USAID’s contract requirements,
USAID Acquisition Regulation (AIDAR) policy and IRG’s internal policy on credential
checks (biographical data, education, and salary verification) were reviewed.


Methodology
In planning and performing our audit work related to the objective, we reviewed two
USAID contracts with IRG, IRG’s internal policy on credential checks, selected IRG
public vouchers for those two contracts, biographical datasheets of selected IRG
employees, AIDAR 752-7001 “Biographical Data,” and the False Claims Act. We
reviewed the contracts to determine IRG’s responsibility, as well as USAID’s
responsibility, to obtain and verify the accuracy of the information provided by the IRG
employees on the biographical datasheets. From a list of IRG issued vouchers for the
USAID/Iraq contracts, we judgmentally selected 17 high-dollar amount vouchers
covering the performance period from February 5, 2003 through December 31, 2004, of
both contracts, including option years. From those 17 vouchers, we developed our
universe of 107 IRG employees. This universe was utilized to judgmentally select a
sample of 21 employees to verify the accuracy of the information provided on the
biographical datasheets. We sent requests for verification to each of the 21 selected
employees’ previous employers and educational institutions, for a total of 42 verifications
in all. Of the 42 verifications sent, 35 responses were received.6 We compared the
information received from the previous employer or educational institution against the
information reflected on the biographical data sheets. We also, with the help of USAID’s
Office of Security, verified the citizenship of the 21 selected IRG employees.

The materiality threshold for this audit was such that, if any discrepancy was discovered,
it would have been a reportable finding.




5
  Contract numbers: EMT-C-00-03-00007 and 517-C-00-04-00106-00
6
  Second notices were sent for the remaining unconfirmed items and additional efforts were made
via, fax, e-mail, and telephone calls; however, at the time this report was written, responses for
the remaining seven had not been received.



                                                                                                6
MANAGEMENT COMMENTS
MEMORANDUM


TO:        IG/A/PA Director, Steven H. Bernstein

FROM:      ANE/OIR Director, Ross Wherry

DATE:      September 22, 2005

SUBJECT: Daft Report on audit on the Accuracy of Biographical
         Datasheets Provided by International Resources Group to
         USAID for Contracts in Iraq. (Report No 9-267-06-00X-P)


Thank you for the opportunity to review the draft subject audit
memorandum.

The result of this audit clearly indicates that IRG took appropriate
measures to ensure the accuracy of biographical data of its
employees by verifying information, such as education, salary and
citizenship. Their efforts to assure due diligence are also recognized.

No actions will be taken to implement Inspector General
recommendations as none were cited in this report.

The IG’s investigative staff is to be commended for conducting such a
thorough examination of documentation which ruled out significant
discrepancies on IRG biographical data sheet information tested.




                                                                   7
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
